                        U.S. Department of Agriculture

                           Office of Inspector General
                            Financial & IT Operations




              Audit Report

National Finance Center’s Controls Over Time
            and Attendance Data




                                  Report 11501-4-FM
                                      October 2008
                                UNITED STATES DEPARTMENT OF AGRICULTURE
                                               OFFICE OF INSPECTOR GENERAL

                                                    Washington, D.C. 20250




October 29, 2008

REPLY TO
ATTN OF:             11501-4-FM

TO:                  Charles Christopherson, Jr.
                     Chief Financial Officer
                     Office of the Chief Financial Officer

THROUGH: Kathleen A. Donaldson
         Audit Liaison Officer
         Office of the Chief Financial Officer
         Planning and Accountability Division

FROM:                Robert W. Young
                     Assistant Inspector General /s/
                      for Audit

SUBJECT:             National Finance Center’s Controls Over Time and Attendance Data


We audited the National Finance Center’s (NFC) controls over time and attendance (T&A)
payroll information. This information is submitted by Federal agencies that contract with NFC to
process salary payments for their employees. NFC feeds T&A information through two
electronic systems: (1) the Time and Attendance Validation System (validation system) and (2)
the Time and Attendance Online Suspense Correction and Document Addition System
(correction system). NFC’s validation system performs a series of automated checks to detect
errors (e.g., a full-time employee being credited with less than full-time hours). When it finds an
error, the validation system holds the employee’s T&A data until NFC’s staff resolves the error
using the correction system. Nothing came to our attention to indicate that employees’ T&A
information was not being processed correctly, but we did have concerns about potential
vulnerabilities in NFC’s security over access to that data, which were resolved during the course
of our audit.

In general, we found that NFC did not ensure that access to employees’ T&A data was restricted
to only those personnel whose job required it. According to the National Institute of Standards
and Technology (NIST),1 agencies must grant access to electronic information systems on a
need-to-know basis, and NFC’s directives reinforce that employees will be authorized access
only to the resources they need to perform their job.2 However, we determined that NFC had

1
    NIST’s Special Publication (SP) 800-53, Recommended Security Controls for Federal Information Systems, December 2006.
2
    NFC’s Management and Administrative Directives Manual, Title VII, Chapter 11, Directive 27, “Data Security Access Policy,”
    March 2005.

USDA/OIG-A/11501-4-FM
Charles Christopherson, Jr.                                                                                                2


granted agencies’ personnel unnecessary access to T&A data. In addition, NFC had not
restricted its own staff’s access to only those whose jobs required them to use the T&A
correction system. Details follow:

NFC should ensure that each agency only has access to its own T&A information. We found
that several agencies had inappropriate access to other agencies’ data.3 For example, when the
Department of Homeland Security (DHS) was created in 2003, NFC placed DHS employees’
T&A information in the same database used for the U.S. Department of Agriculture (USDA).
NFC allowed staff who processed T&A data for each Department (i.e., timekeepers) access to
the other’s information. Subsequently, NFC moved DHS’ T&A information to another database,
but the two Departments retained dual access. We informed NFC about the issue, and,
in July 2008, NFC required agencies to (1) ensure that their personnel did not have improper
access to other agencies’ T&A data and (2) request that NFC remove any access privileges that
were no longer necessary or valid. These corrective steps addressed our concern.

Further, NFC had not removed agencies’ access to a software program that transfers electronic
information across storage mediums (e.g., from one computer hard drive to another).4 The
program copies T&A data and then writes the information onto the new medium, which allows
users to make changes to the data during the copying process. The program is no longer used to
move T&A data because newer programs allow the agency to do so more securely, but it
remained part of agencies’ access privileges and so constituted a potential vulnerability. We
raised the issue with NFC officials who removed the program in April 2007.

We also found that the training environment that NFC developed, to teach agencies’ personnel
how to transmit T&A information, allowed them access to NFC’s production systems rather than
to a training environment. We were concerned that trainees were able to submit real T&A data
during training to NFC for payroll processing. NFC had written procedures requiring its staff to
set up agency training environments without access to its T&A systems, but did not distribute the
procedures to its staff. Nothing came to our attention to indicate that trainees had accidentally or
purposefully sent real data through NFC’s T&A system, but we noted the potential vulnerability.
NFC agreed with our assessment and removed their access privileges, and distributed the written
procedures prohibiting training access to actual T&A systems in April 2007.

In addition, NFC did not fully restrict access privileges for its own employees. NFC granted
staff in its personnel branch access to its T&A correction system. Since the personnel branch
processes information for new employees, those staff members with access to the T&A
correction system could both create a fictitious employee and then submit T&A information for
that employee, which would result in a payment being issued. Thus, personnel branch staff with
access to the T&A correction system constitutes a potential vulnerability that should be mitigated


3
  NFC also contracts with cross-servicing agencies, which themselves have contracts with other agencies to process their T&A
  data before submitting it to NFC. In these cases, NFC has legitimately granted the cross-servicing agencies access to other
  agencies’ T&A information.
4
  The software program is an IBM mainframe utility program: IEBGENER.
USDA/OIG-A/11501-4-FM
Charles Christopherson, Jr.                                                                                    3

by segregating duties. Nothing came to our attention to indicate that NFC employees with
inappropriate access created fictitious employees. However, NFC agreed to minimize the risk
and, in August 2007, removed access from employees who did not need it to perform their job.

Information systems are required to track users’ actions (i.e., record an audit trail). 5 However,
NFC’s T&A correction system did not track NFC staff that were working on a particular T&A
record, or the nature of any changes that were made. NFC’s procedures generally require its
staff to work with agencies to resolve the errors with employees’ T&A data.6 NFC staff can both
correct errors and initiate T&A records for agencies that request it. For example, agencies may
ask NFC to enter T&A data for employees who have missed NFC’s cutoff date for submitting
T&A data. The ability of NFC staff to change and create T&A information for agencies without
an audit trail weakened NFC’s control over the integrity of that data.

NFC officials agreed that the lack of an audit trail was a potential vulnerability, but noted that
redesigning the system would be cost prohibitive. To address the issue, NFC instituted controls
to compensate for the lack of an audit trail in August 2007. Now, T&A records that are created
in the correction system have a user identification that links to the employee that created them.
These actions are subject to supervisory review for records created for NFC staff, as well as
other Office of the Chief Financial Officer employees. NFC also selects a sample of other
agencies’ corrected T&A records for review. We agree that these actions adequately mitigate the
risk.

Combined, the weaknesses above constituted a security vulnerability that offered unauthorized
personnel the potential to inappropriately alter T&A data. Given NFC’s actions to strengthen the
security of access to the validation and correction systems, we determined that its controls over
T&A data were adequate.

BACKGROUND

Federal agencies contract with NFC to process their employees’ T&A data. Every 2 weeks,
agencies prepare a T&A record for the hours their employees worked and then transmit the
information to NFC. Before using the data to process payments, NFC’s validation system
automatically checks for errors, such as a T&A received for a separated employee. If the system
finds a problem, the individual’s T&A data is sent to an error suspense file where it remains until
it can be fixed in NFC’s correction system. After T&A data passes all edits and is validated, it is
then processed through NFC’s Pay Computation System (pay system). This pay system
computes employees’ gross pay, deductions, and adjustments to calculate net pay. In addition,
the pay system updates payroll/personnel information in NFC’s database to reflect employees’
salary payments and their used and accrued vacation hours and sick leave. In 2007, NFC
processed salary payments of nearly $26 billion for about 600,000 employees who worked for
approximately 140 agencies.



5
    NIST’s SP 800-53, Recommended Security Controls for Federal Information Systems, December 2006.
6
    NFC’s Payroll/Personnel Manual, Title I, Chapter 2, Section 1, “T&A Processing and TSUS,” December 1998.
USDA/OIG-A/11501-4-FM
Charles Christopherson, Jr.                                                                     4

OBJECTIVE

The objective of this audit was to assess NFC’s controls over the input, processing, and output of
data processed through its T&A validation system (the Time and Attendance Validation System)
and T&A correction system (the Time and Attendance Online Suspense Correction and
Document Addition System).

SCOPE AND METHODOLOGY

To accomplish the audit objectives, we reviewed NFC’s management and security controls over
processing T&A data at NFC in New Orleans, Louisiana. Specifically, we:

   •   Reviewed the Office of Management and Budget’s requirements for controls over
       electronic information systems; Federal Information Processing Standards requirements
       for Federal information and Federal information systems; NIST’s guidance; and relevant
       USDA regulations and manuals.

   •   Reviewed NFC’s policies and procedures related to T&A data input, processing, and
       output.

   •   Interviewed key personnel at NFC about their adherence to applicable policies and
       procedures, and the workings of their electronic information systems’ controls.

   •   Reviewed security access reports for January 2007 and T&A record files for the first
       2007 Federal pay period (January 7 through 20).

   •   Examined security access and T&A transactions using Audit Command Language (a
       database analysis software program).

   •   Discussed the issues we identified with NFC officials to understand their perspective.

   •   Obtained NFC’s agreement with our concerns and reviewed its corrective actions.

We performed fieldwork from January 2007 through July 2008.

We conducted this audit in accordance with generally accepted Government Auditing Standards.
These standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions.




USDA/OIG-A/11501-4-FM
Charles Christopherson, Jr.                                                                  5


CONCLUSION AND REQUIRED AGENCY ACTION

As discussed above, NFC implemented key improvements during our audit to restrict access to
its T&A validation and correction systems, and NFC instituted a control mechanism to monitor
its employees’ actions in the correction system. Together, these actions strengthened NFC’s
controls over the two systems to minimize the potential for unauthorized access and unallowable
changes to T&A data. Accordingly, this report presents no recommendations, and no further
action is required by your office.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
review.




USDA/OIG-A/11501-4-FM
